<html>
<title> - NEED TO INVEST FEDERAL FUNDING TO RELIEVE TRAFFIC CONGESTION AND IMPROVE OUR ROADS AND BRIDGES AT THE STATE AND LOCAL LEVEL</title>
<body><pre>[Senate Hearing 114-40]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 114-40
 
               NEED TO INVEST FEDERAL FUNDING TO RELIEVE 
                TRAFFIC CONGESTION AND IMPROVE OUR 
                ROADS AND BRIDGES AT THE STATE AND 
                LOCAL LEVEL

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON TRANSPORTATION 
                           AND INFRASTRUCTURE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 1, 2015--BATON ROUGE, LA

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________
                               
  
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-999PDF                  WASHINGTON : 2015                       
                        
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5136213e113224222539343d217f323e3c7f">[email&#160;protected]</a>  
                              
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                              ----------                              

           Subcommittee on Transportation and Infrastructure

                   DAVID VITTER, Louisiana, Chairman
JOHN BARRASSO, Wyoming               BARBARA BOXER, California
SHELLEY MOORE CAPITO, West Virginia  THOMAS R. CARPER, Delaware
MIKE CRAPO, Idaho                    BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
JEFF SESSIONS, Alabama               SHELDON WHITEHOUSE, Rhode Island
ROGER WICKER, Mississippi            JEFF MERKLEY, Oregon
DEB FISCHER, Nebraska                KIRSTEN GILLIBRAND, New York
JAMES M. INHOFE, Oklahoma (ex 
    officio)
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 1, 2015
                           OPENING STATEMENT

Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     1

                               WITNESSES

LeBas, Sherri, Secretary, Louisiana Department of Transportation 
  and Development................................................     3
    Prepared statement...........................................     6

Coco, Joey, American Society of Civil Engineers..................    20

Perret, Ken, President, Louisiana Good Roads and Transportation 
  Association....................................................    22
    Prepared statement...........................................    24

Quezaire, Roy, Deputy Director, Port of South Louisiana..........    26
    Prepared statement...........................................    29


  NEED TO INVEST FEDERAL FUNDING TO RELIEVE TRAFFIC CONGESTION AND 
       IMPROVE OUR ROADS AND BRIDGES AT THE STATE AND LOCAL LEVEL

                              ----------                              


                          MONDAY, JUNE 1, 2015

                               U.S. Senate,
         Committee on Environment and Public Works,
         Subcommittee on Transportation and Infrastructure,
                                                   Baton Rouge, LA.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 348, East Baton Rouge Parish Council Chamber, 222 St. 
Louis Street, Baton Rouge, Louisiana, Hon. David Vitter 
(chairman of the subcommittee) presiding.
    Present: Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Good morning and thank you for joining me 
in Baton Rouge today for the Senate Transportation and 
Infrastructure Subcommittee hearing on the need to invest 
Federal funding to relieve traffic congestion and improve our 
roads and bridges at the State and local level.
    We are talking about building infrastructure to relieve 
traffic congestion, and that just goes to basic quality of life 
issues. Particularly those of us who live in this part of the 
State certainly get being stuck in traffic and wasting valuable 
time as we try to get to work or bring kids to soccer or school 
or whatever else.
    So it's a basic quality of life issue. It's an important 
safety issue. And it's an important economic issue. Because the 
more we have these tie-ups, we have lack of productivity, and, 
quite frankly, these bottlenecks can be a significant turnoff 
in terms of more jobs and economic development coming here.
    As Chair of this Transportation and Infrastructure 
Subcommittee that I mentioned, I have been very focused on the 
Federal aspects of this problem. So last year, for instance, I 
worked with other key leaders to pass a Federal highway bill 
reauthorization. We put that together. It was a long-term 
bipartisan bill. We passed it through our committee, but it did 
not pass through the whole Congress. So we still have that work 
to do.
    This year, I am redoubling those efforts, reaching out, 
working with other key leaders on putting together that highway 
bill extension. We have had a lot of short-term extensions. My 
goal is certainly for a medium- or long-term bill, 6 years, if 
at all possible, because that gives us the stability to be able 
to plan and move forward in a really productive way.
    Let me go to our slides now that illustrate some of the key 
issues we are talking about. First of all, a little bit of good 
news, we have a long way to go, but a little bit of good news. 
Since I have been involved working with others, because of the 
work of many folks, certainly not just me, we have been able to 
increase Louisiana's rate of return on the Federal gas tax.
    So every time you fill up your car at the gas pump, you're 
paying a gas tax to the Feds and to the State. So this is the 
Federal gas tax, how much do we get back for every dollar we 
send to Washington from the State. Back in around 1998, as I 
was coming to Congress, it was only 90.5 cents on the dollar.
    In the next big Federal highway bill, we were able to 
increase that significantly to 93.7 cents on the dollar, but 
that still made us a quote, unquote, donor State. In other 
words, we were sending more money to the Feds than we were 
getting back for important projects.
    Now, in the current bill, we are slated to get a little 
over a dollar, 102 cents on the dollar. So we will actually be 
getting back, through the Federal Highway Program, more than we 
are sending from Louisiana in the Federal gas tax.
    A few other accomplishments. We passed some language to 
streamline bridge projects, particularly smaller bridge 
projects so we can do those more efficiently. We have authored 
legislation to advance vehicle technologies like ignition 
interlock locks that can be very helpful, dramatically cutting 
down on drunk driving.
    We are targeting funds in the next highway bill to build 
additional lanes and improve the flow of commerce in areas of 
greatest congestion nationally. As you can imagine, Baton Rouge 
will absolutely qualify, Greater New Orleans will also qualify.
    And over several years, we have secured significant funding 
for important projects. Those are five bullets that illustrate 
significant funding for specific targeted projects like Baton 
Rouge congestion relief. But obviously there's a lot more work 
to be done.
    So Louisiana traffic, how bad is it? You all live in 
Greater Baton Rouge. I don't need to tell you. But just a few 
statistics. We rank 40th in the Nation in terms of our overall 
highway system. And we are 19th for urban interstate congestion 
here in Greater--that's actually statewide in urban areas, with 
about 31.67 percent of the miles on urban interstates counted 
as congested in Louisiana.
    And our roads, how bad are they? We are actually ranked 
worse in terms of road condition, 48th in the Nation, with 
15.31 percent of interstate mileage considered in outright poor 
condition.
    That obviously has a big negative impact on safety. We are 
ranked very poorly in terms of deadly crashes, ranking 44th, 
with a fatality rate of 1.54 deaths per 100 miles traveled by 
vehicle. So we need to improve that.
    And then a big negative impact on commerce, which again, we 
all get through the Greater Baton Rouge experience. These are 
national figures.
    The American Society of Civil Engineers estimates that the 
loss of sales nationally because of congestion could total a 
trillion dollars in this time period 2012 to 2020. And the 
reduced productivity and higher expenses could drain $3.1 
trillion from our Gross Domestic Product. So it certainly is a 
negative impact on the economy.
    And this final slide is our current Federal Highway Program 
funding challenge. So the part to the left in the darker shade 
is past to the present. And those bars are basically the 
revenue from the Federal gas tax. And as you can see, in the 
past, they have basically covered the program. But as costs go 
up with normal inflation, if you look to the right, that's the 
future.
    And the Federal gas tax, the way it is slated to continue, 
which are the more lightly shaded bars, will not cover the cost 
of the program even at current levels, adding inflation. So 
that gap, that delta between the lightly shaded bars and the 
line is the challenge we have in terms of funding the Federal 
Highway Program moving forward. And that's a lot of what we are 
here to talk about today.
    We are very, very honored to have four excellent witnesses 
with us this morning from Louisiana who have great insight and 
significant roles in all of these issues. So let me introduce 
all four of them and then they will testify for about 5 minutes 
each in turn, and then we will have a discussion with them.
    First, we are going to hear from Secretary Sherri LeBas, 
who heads the Louisiana Department of Transportation and 
Development. Secretary LeBas is a Professional Civil Engineer 
with more than 29 years in State service in Louisiana working 
in DOTD, as well as the Division of Administration. She is 
responsible for more than a $1.7 billion annual budget and over 
4200 employees across the State.
    Next, we will hear from Joey Coco. Joey is currently a 
managing principal with the firm Forte and Tablada of Baton 
Rouge. He has served as the President of the American Society 
of Civil Engineers, Baton Rouge Branch, and as a Director of 
the Louisiana Section of the ASCE. He is also a Deputy Director 
of the first Louisiana infrastructure report card which was 
released in 2012.
    Next, we will hear from Ken Perret. Ken is currently 
President of the Louisiana Good Roads and Transportation 
Association. Prior to his current role, he served as an 
Assistant Secretary for the Louisiana Department of 
Transportation and Development and an Administrator for the 
Federal Highway Administration.
    And last, but certainly not least, will be Roy Quezaire. 
Roy served as State Representative from District 58 from 1992 
to 2007 and he chaired the State House Transportation Committee 
during his tenure there. He resigned his seat to become the 
legislative liaison for DOTD and he is currently Deputy 
Director at the Port of South Louisiana, which is our Nation's 
No. 1 port in terms of commercial tonnage movement.
    Again, thanks to all of you for being here, for your work, 
and we will start with Secretary LeBas.

 STATEMENT OF SHERRI LeBAS, SECRETARY, LOUISIANA DEPARTMENT OF 
                 TRANSPORTATION AND DEVELOPMENT

    Ms. LeBas. Good morning. I would like to take this 
opportunity and just say thank you for inviting me here to 
speak before the subcommittee on behalf of DOTD.
    A strong and viable transportation system is needed in 
order to support the growth of Louisiana's economy. This growth 
can only happen by working together with local partners and 
prioritizing funding for transportation projects that improve 
major corridors, reduce traffic congestion, and improve road 
quality.
    An example of this growth is the Horace Wilkinson Bridge, 
also known as the new bridge in Baton Rouge. Largely due to 
economic growth, the average daily traffic on this bridge has 
increased from 88,500 in 2010 to 102,502 in 2013. This is a 15 
percent increase in just 3 years.
    Unfortunately, the cost of providing sustainable and 
reliable infrastructure and services keeps increasing as our 
revenue streams are stagnant. In this period of growing demands 
on infrastructure, I believe that we must continue to work 
together to strive for creative and innovative solutions to 
fund, design, and construct projects. It is for this reason we 
need long-term stability in transportation to meet our Nation's 
many transportation infrastructure needs.
    DOTD manages $1.7 billion in capital and operating revenue 
and expenditures each year. We are also responsible for 
maintaining the safety and efficiency of Louisiana's highway 
system, which includes 16,655 miles of State roadway, including 
931 miles of interstate, 12,821 bridges. Of these, 7,887 are 
State owned.
    Additionally, DOTD supports the development of Louisiana's 
aviation, marine, rail, and transit infrastructure to 
facilitate economic growth. These include 34 ports, 62 
airports, 11 urban transit providers, and 32 rural transit 
providers, three ferry service locations, and much more.
    Since 2008, DOTD has invested more than $7 billion, which 
includes $3.93 billion in Federal funds in Louisiana's 
infrastructure and routinely uses all the money it receives 
from the Federal Highway Trust Fund. This translates into more 
than 3,000 improvement projects, including approximately 8,500 
miles of roadway, and 472 bridges.
    As a result of our mutual investment, Louisiana's backlog 
of roads and bridge needs has been reduced from $14 billion to 
$12.35 billion. Still a large number. As most of you know, 
bridges play a significant role in the makeup of Louisiana's 
infrastructure. We rank first in the Nation for the most 
movable bridges, third for the most timber bridges, and third 
for bridges with square feet of deck area.
    Every day, a high volume of motorists cross the more than 
12,000 bridges statewide. That's one of the many reasons to 
invest in our bridges. These aging structures not only have 
statewide but nationwide impact as they serve as a vital link 
of vast economic importance.
    One example of an important bridge project which awaits 
funding is the I-10 Calcasieu River bridge. Currently in the 
environmental phase, this $450 million project involves six-
laning the corridor, replacing the bridge and the approach 
roadways, in addition to revamping nearby interchanges and 
frontage roads. But current funding hinders making this bridge 
project a reality.
    While we continue to invest in our bridges across the 
State, we are just as equally committed to investing in our 
roadways. Road projects include stretches of roads that need to 
be overlaid, and bridges that are posted causing farm products 
to have to travel further to get to the market or point of 
distribution.
    In some cases, it is a local bridge that may have to close 
because there aren't enough dollars to make the necessary 
repairs. Sadly, these figures will continue to escalate as the 
national highway system ages. Additionally, we are seeing 
increased vehicular and truck usage across the country and 
especially on the Nation's interstates.
    On our displays, we have one that outlines the State's 
mega-projects. Louisiana DOTD's current update to the statewide 
Transportation Plan identifies 113 major transportation 
improvements or mega-projects statewide.
    A mega-project is a very expensive or large-scale 
transportation improvement that has regional or statewide 
impact which requires funding outside the normal DOTD funding 
mechanisms.
    Also, there are a series of maps that shows normal 
afternoon congestion in the metropolitan areas on a typical 
afternoon during peak hours. In Baton Rouge, we can see traffic 
begin to build at the new bridge at 3:30 p.m. and can last 
until after 6:30 p.m.
    Thank you for extending this invitation to address this 
subcommittee and for helping raise awareness to the 
infrastructure deficit by giving it the attention it deserves.
    Louisiana DOTD is not slowing down in its efforts to 
provide solutions to the State's infrastructure challenges. 
However, we are depending on the Federal Government to do its 
share of lifting when it comes to funding these solutions. 
States cannot maintain this Nation's infrastructure alone. We 
must work together to foster economic growth and prosperity by 
building and maintaining a strong infrastructure network. Thank 
you.
    [The prepared statement of Ms. LeBas follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Senator Vitter. OK. Thank you very much, Madam Secretary. 
And we will go in the order of my introductions, so Joey Coco 
will be next.

  STATEMENT OF JOEY COCO, AMERICAN SOCIETY OF CIVIL ENGINEERS

    Mr. Coco. Thank you, Senator. I appreciate you inviting me 
to be here. I'm here to represent the American Society of Civil 
Engineers or ASCE. ASCE is the largest engineering organization 
in the country. It was founded in 1852 and has members 
represented in 174 countries across the world.
    I'm the Past President of the Baton Rouge Branch. I'm also 
Louisiana Section member, Board Member and, as David mentioned, 
I was the 2012 infrastructure report card Deputy Director.
    ASCE stands on the forefront of a profession that plans, 
designs, constructs and operates society's economic and social 
engine, the built environment, while protecting and restoring 
the natural environment.
    Most importantly, I am a practicing engineer. I am a 
licensed Professional Engineer and I have spent much of my 
career working on transportation projects, working on our 
bridges, under our deteriorating bridges as well. I have worked 
firsthand on transportation matters in Louisiana and I'm aware 
of the issues that are going on across the country related to 
our road and transportation and bridge infrastructure.
    As our Nation continues to defer maintenance on our roads 
and bridges and transit system and fails to modernize other 
critical infrastructure sectors, we lose global 
competitiveness, our economy suffers, and we sacrifice our 
ability to create jobs.
    ASCE's national 2013 report card graded the Nation's 
infrastructure a D+ based on 16 different categories and found 
that the Nation needs to invest approximately $3.6 trillion by 
2020 to maintain the national infrastructure in a good 
condition.
    In particular, on a national level, bridges received the 
grade of C+ and roads received a grade of D. So the problems 
that we are talking about here today are not just Louisiana 
based, they happen in the rest of the country as well.
    In 2012, our Louisiana infrastructure report card found 
that our State's bridge grade was a D+ and our roads were 
graded a D. This effort was conducted by 50 volunteers from 
public, private, and academic backgrounds and was unfunded.
    We found that Louisiana's road system is congested, is in 
poor condition, and is inadequate to meet the needs of a State 
competing to provide economic opportunities for businesses and 
citizens in the 21st century. Louisiana has the fourth highest 
square footage of bridge deck in the country with Federal and 
State transportation officials classifying almost 29 percent of 
Louisiana's bridges as either structurally deficient or 
functionally obsolete.
    The number of deficient bridges in Louisiana is more than 
the total number of bridges in 10 other States, the District of 
Columbia, and Puerto Rico, and the situation isn't getting any 
better. Louisiana needs substantial increases in revenue to 
fund improvement for its deteriorating bridge infrastructure.
    Our deteriorated and congested transportation network costs 
Louisiana motorists $3.1 billion annually. Boiling that down 
just a bit, $1,050 per driver in Baton Rouge, $1,254 per driver 
in New Orleans. There's a real cost to inaction on Louisiana 
families when it comes to the quality of our roads and bridge 
infrastructure.
    This is everyone's problem. I own this infrastructure. 
Everyone in this audience today owns this infrastructure. Our 
ASCE members own this infrastructure. The public owns this 
problem.
    Providing redundancy to alleviate congestion on our major 
economic corridors in Louisiana is costly, primarily because of 
the major river body crossings that we have, also due to our 
poor soil conditions. The things that make our State great also 
make our infrastructure very expensive.
    An example is the update to the bridge here in Baton Rouge, 
the old bridge. That project alone, to preserve it, to repair 
it, to paint it, is $100 million. That's a lot of money.
    Most importantly for Louisiana, we are America's energy 
corridor and the cost to the Nation and to Louisiana of not 
having a first-class transportation system here is real. Of 
recent, there have been numerous mega-project announcements for 
industry in the State but a few have fizzled citing 
transportation as a reason for not investing in Louisiana.
    Plants just outside of Baton Rouge are struggling to figure 
out how to consistently get people to work, when instead they 
should be focusing on bettering their goods and services.
    Put simply, infrastructure is an investment and without it 
our quality of life will suffer when basic services cannot be 
provided consistently.
    So how can Congress help? As you know, we approach a 
deadline to reauthorize the surface transportation law, MAP-21, 
by the end of July and we feel that extending this deadline 
further into the year will only create more program uncertainty 
and hinder the ability of our members to plan and deliver the 
types of quality projects that we are capable of doing.
    ASCE favors funding solutions that provide for a long-term 
revenue stream, is sustainable, can grow the program, does not 
contribute to the deficit and ideally maintains the user fee 
funding principle.
    ASCE supports public/private partnerships, particularly 
when they are used to deliver projects that could otherwise be 
built with existing public funds. However, these deals 
oftentimes rely on public funding to repay investors, and 
having political support for user fees and for the occasional 
user fee increases. So it's essential to grow the private 
market as well.
    ASCE believes that Congress should set its sight on 
delivering a 6-year bill with an increase in the funding via a 
user-fee revenue source before the July 31st deadline. This is 
a tall order, we know, but one that has been on the agenda for 
quite some time and is absolutely necessary for Louisiana.
    Finally, I would like to say thank you on behalf ASCE for 
your leadership in Congress specifically related to the Water 
Resources Development Act. We believe that that's going to help 
our 16 national categories and those specifically related to 
dams, inland waterways, levees, ports, and wastewater. Those 
are very important areas for Louisiana.
    ASCE looks forward to continuing to work with you. We 
greatly appreciate your willingness to talk about our 
infrastructure. And as I have said to my friends and family, 
and colleagues, that our bridges and our roads, they can't talk 
about their illnesses, someone has to talk about them and we 
really appreciate, as ASCE, you doing that. Thank you.
    Senator Vitter. Great. Thank you very much, Joey.
    And next we will hear from Ken Perret. Ken, welcome.

 STATEMENT OF KEN PERRET, PRESIDENT, LOUISIANA GOOD ROADS AND 
                   TRANSPORTATION ASSOCIATION

    Mr. Perret. Thank you, Senator Vitter. I'm here today as my 
role as the President of the Louisiana Good Roads and 
Transportation Association. We are a nonprofit group that 
supports adequately financed and well-planned transportation 
systems that promote economic development, increase safety, and 
add to the quality of life of our citizens. We have 500 members 
here in Louisiana.
    I come here today with no political agenda, just a facts-
based message. In Louisiana, we have a broken and bottlenecked 
transportation system that literally is getting worse every 
day. Here in Baton Rouge, the I-10 river bridge congestion 
causes traffic backups every day and when crashes occur, hours 
of delay and driver frustration result.
    Maintenance of our roads and bridges is being deferred. 
Congestion is building in urban areas. We now have a backlog of 
more than $12 billion in needs on the existing highway system.
    Since the American Society of Civil Engineers published a 
report card for Louisiana's infrastructure, a professional 
nonpartisan study of our public infrastructure, our bridges 
received a D+, and our roads a D. That was 3 years ago and 
nothing much has changed and certainly a grade of D is not an 
acceptable grade for our infrastructure.
    We are not investing enough money in our transportation 
infrastructure. We finance transportation in Louisiana through 
a flat gasoline tax that has not been adjusted in a quarter of 
a century, yet we pretend to magically address Louisiana's 2015 
transportation needs with a funding model that has not taken 
into account inflation since 1989. That's like trying to pay 
today's bills on a 1989 salary. In fact, that's exactly what we 
are doing. We have starved our transportation system of the 
funding it needs to keep up with today's demands.
    So why aren't we putting more money into our transportation 
infrastructure? The political climate in recent years has been 
hostile to suggestions of increased taxes. No one wants to pay 
more taxes. In fact, no matter what plan you come up with, no 
matter how much trust you restore to the trust fund, it is 
going to take more taxes, more finances to fix our roads and 
bridges.
    The nonpartisan Public Affairs Research Council said the 
Louisiana transportation system needs an extra $650 million a 
year just to begin addressing the backlog of project needs. The 
report was 6 years ago and not much has changed.
    Right now, Louisiana has one of the lowest gas taxes in the 
country at 20 cents a gallon. That translates to about $100 per 
year for the average driver. Just $100 a year. Now if you go 
out to a dinner and a movie, that would probably cost you $100 
in one night, and so drivers are paying $100 a year for the 
upkeep of our State roads.
    The national average is 30 cents per gallon in State taxes 
or about $150 a year. So Louisiana drivers save about $50 a 
year by holding the line on more taxes. The great irony is that 
in exchange for the $50 a year in lower taxes, the average 
Louisiana driver pays more than $1,000 a year extra in higher 
insurance rates and extra car repairs. It does not even value 
the time wasted while we are sitting in congestion thinking 
about the $50 we saved in taxes.
    Investing in our transportation system creates unique 
economic opportunities. According to the Federal Highway 
Administration, each $1 billion invested in transportation 
leads to about 31,000 direct, indirect, and induced jobs. The 
big payoff is the increased economic activity the investment 
encourages.
    The National Association of Manufacturers says that 
targeted long-term increases in U.S. public infrastructure 
investment over the next 15 years reap tremendous benefits. 
Major investments will create nearly almost 1.3 million jobs, 
grow the GDP about 2.9 percent, provide a return of about $3 
for every dollar invested and would significantly increase the 
American household take-home pay.
    As I said in the beginning, Good Roads does not have a 
political agenda, but as a Professional Engineer and as a 
citizen, I have a duty to give you the facts. Our roads and 
bridges are the building blocks of our society. We must make 
fundamental changes to how we finance our system. We must 
invest in our own ability and in our economic future. We must 
swallow hard the reality that spending more than $1,000 a year 
for a poor system that simply isn't worth saving $50 in taxes.
    And I have two additional points I would say that what is 
really important in moving forward is to build partnerships and 
getting people involved that are transportation shareholders or 
stockholders, you might say. That includes local governments, 
includes also the trucking industry. They are a big player. 
They need to be brought onboard and get their support. And from 
the local, State level, it takes leadership of the Governor to 
have an effective State transportation system.
    So certainly we have some leadership in the legislature 
that are trying their best to get some increased funding, but 
we need leadership on the fourth floor in the Governor's Office 
to provide some leadership in moving our transportation system 
forward.
    Thank you for the opportunity to provide this testimony 
today.
    [The prepared statement of Mr. Perret follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Senator Vitter. Great. Thank you very much, Ken. Appreciate 
it.
    Last, but certainly not least, Roy Quezaire.

   STATEMENT OF ROY QUEZAIRE, DEPUTY DIRECTOR, PORT OF SOUTH 
                           LOUISIANA

    Mr. Quezaire. Good morning. And thank you, Senator Vitter, 
for this invitation. It is indeed an honor and pleasure to 
participate.
    I have the opportunity here to hopefully educate and 
sensitize individuals on the impact and the importance that the 
ports of Louisiana, State of Louisiana, brings to the table for 
all of us individually and collectively. Also, to also segue 
back in on the traffic congestion, suggestions and relief 
opportunities that we should take advantage of.
    Traffic congestion as it impacts the ports of Louisiana. 
First and foremost, what is the significance of Louisiana 
ports? One in every five Louisiana jobs is supported by 
Louisiana ports. 400,000 jobs are created and supported also by 
Louisiana ports. $20 billion in personal earnings supported 
also by the ports, with 500 million tons of cargo moved on the 
lower Mississippi River annually.
    As you can see, on the chart to your left, there are 40 
ports in Louisiana, including developing ports and the 
Louisiana Offshore Oil Port or basically otherwise known as the 
LOOP. There are 16 inland river ports in Louisiana, six deep-
draft seaports in Louisiana, and nine coastal energy ports.
    Louisiana ports carry 25 percent of U.S. waterborne 
commerce, which is significant. 47 percent of all Louisiana 
parishes contain a port. Of the five largest ports in the U.S., 
four are located along the Mississippi River. Port Fourchon 
directly serves approximately 90 percent of all deep-water 
offshore rigs and platforms in the Gulf and nearly half of all 
shallow-water rigs and platforms in the region. And it also 
serves or gives 18 percent or offers 18 percent of the U.S. oil 
supply.
    Net income, operating and non-operating revenues, grew by 
almost 34 million over a 10-year period for all ports, an 
average of 2.9 million for coastal ports. In 2010, ports 
directly invested approximately $130 million, which yielded the 
creation and support of 2,250 jobs with personal earnings of 
$85.5 million. Great impact.
    The Port of South Louisiana, for which I proudly serve as 
Deputy Director, extends 54 miles along the Mississippi River, 
and is the largest tonnage port in the Western Hemisphere. Over 
291 million short tons to major U.S. markets in the Midwest and 
Northeast is what the Port of South Louisiana delivered last 
year and we are looking forward to breaking that record this 
year. Over 400 ocean-going vessels and 55,000 barges were 
serviced. Cargo throughput accounts for 15 percent of U.S. and 
57 percent of all Louisiana exports.
    The Port of Greater Baton Rouge is ranked ninth nationally 
in total tonnage. Lake Charles has plans for $275 million in 
capital improvements in the next 5 years. Deep-draft ship 
traffic is forecasted to double over the next 10 years, and 
that's included in the Calcasieu Ship Channel Traffic Study 
Report. Lake Charles forecasts 42 billion in natural gas 
related industrial development.
    The Port of Morgan City supports companies essential to oil 
and gas industry and ships agricultural products. Port of New 
Iberia is home to 100 companies providing component parts and 
services for the offshore oil industry.
    Nearly half of all freight moved in Louisiana is by water 
with over 510 million tons in 2012. The five ports on the 
Mississippi River and Port of Lake Charles on the Calcasieu 
River are some of the largest tonnage ports in the United 
States. With the ports of south Louisiana, New Orleans, Baton 
Rouge, and Plaquemines, they are all rated in the top 10.
    The WRDA bill, Senator, which I want to commend you on your 
individual efforts for the State of Louisiana, and all of its 
ports, that bill in 2014, allows for the operation and 
maintenance of the Mississippi River to be 100 percent 
federally responsible up to 50 feet. And that additional, that 
will bring a lot more commerce to the Mississippi River.
    The United States Corps of Engineers and DOTD are presently 
cost-sharing in the study to deepen the Mississippi River to 
that targeted 50 feet. Many major chemical manufacturing plants 
are located between the Port of South Louisiana and that of 
Baton Rouge. The lower Mississippi River Deep-Draft Complex is 
the largest in the United States that offer waterborne access 
into 30 other States via inland waterways.
    Plaquemines Port is home to the two largest coal terminals 
in the United States. More than 5,000 ocean-going vessels 
annually move through New Orleans on the lower Mississippi 
River. The Port of New Orleans is the Nation's top port of 
imported natural rubber. It is estimated that the Mississippi 
River and tributaries has over a $200 billion annual impact on 
the United States.
    Given these significant statistics on the importance of 
ports and therefore the need to improve traffic flow in and out 
of them, it becomes even more vital when we consider that 
freight volume is expected to double by 2040. We are already 
witnessing a new and previously unseen boom in domestic energy 
production and development that in and of itself is driving new 
conversations every day.
    A report by the American Association of Civil Engineers 
reveals that at the Nation's 16 major container ports, 
deficient or congested surface transportation conditions 
resulted in a $795 million impact on containerized imports and 
a $311 million impact on ports.
    In Louisiana, one of our biggest problems is that the Port 
of New Orleans with truck and rail traffic entering and exiting 
the port in downtown New Orleans. Currently, a spaghetti bowl 
of tracks and crossings often cause a train to take over 30 
hours just to get through the area.
    A goal of the New Orleans Gateway Program is to identify 
potential future projects throughout New Orleans that will 
streamline and improve the flow of freight and rail traffic 
through the city and to and from the ports.
    To further address the existing challenges and the future 
demands of traffic flows for our ports, I recently had a 
discussion with and proposed an idea to Senator Vitter. The 
proposal for which he touched upon previously is to complete 
four-laning LA 1 on the west side of the Mississippi River I-10 
just before the Baton Rouge bridge all the way down to the 
Sunshine Bridge, which has been and still is currently under-
utilized.
    LA 1 is currently four lanes from I-10 to White Castle. 
This would reduce the traffic on the heavily congested I-10 
through the center of Baton Rouge.
    Please keep in mind between the--there's only 10 miles from 
White Castle to Donaldsonville and it would only cost, with 
this idea, cost to bring in those additional two lanes, and you 
would have four lanes from the I-10 bridge all the way down to 
the Sunshine Bridge. We can then take advantage of the already 
four-lane segments of LA 1, which would be from Port Allen 
through Plaquemine through White Castle.
    We should take advantage, again, of the under-utilized 
Sunshine Bridge, but most importantly, it would give speedier 
access and egress to and from the major ports and plants in 
southeast Louisiana along the Mississippi River corridor. Thank 
you.
    [The prepared statement of Mr. Quezaire follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
    Senator Vitter. Great. Thank you very much, Roy. And now 
let's just have a discussion about all of these ideas.
    First of all, let me say Joey mentioned again the biggest 
Federal issue before us in all of this, which is extending and 
reauthorizing the Federal Highway Program. And for the record, 
I certainly agree that this next step, we need a longer term 
approach. Quite frankly, there's a split in Congress. Some 
folks, particularly on the finance committee, who have to come 
up with the funding, are looking at simply another kick-the-
can-down-the-road to the end of the year. I think that would be 
very negative and that they should really focus on a five, 6-
year bill, which is what we are putting together on the 
transportation policy side in our transportation committee.
    So that's a debate and a work in progress. So I would 
certainly encourage all of you in your national associations to 
weigh into that for a longer term bill. We will have to come up 
with something, one way or the other, by late July, early 
August, and hopefully it will be a longer term bill, which I 
support.
    Madam Secretary, let me start with you. For obvious 
reasons, you and many others in the audience touched on the 
bridge here in Baton Rouge. Short-term, I'm not talking about 
the big picture, ideal solutions, but short-term, are there any 
improvements that could give some meaningful relief like 
closing either completely or at peak traffic times the 
Washington exit?
    Ms. LeBas. Well, first of all, we have synchronized the 
lights on LA 1 trying to get people on the west side to take LA 
1 down to the old Mississippi River bridge and we are doing a 
rehabilitation of the old Mississippi River bridge, which 
hopefully that will lend people to be more apt to use that 
bridge. It's not just painting, it's also rehabilitation as 
well.
    You know, interesting enough, closing the Washington Street 
exit is not going to create the relief that people may believe 
that it is going to create. In addition to that, there's quite 
a bit of opposition to closing that. But even with that 
opposition, if you look at the traffic modeling that we have 
done in that area, that will not solve the problem. So, what--

    Senator Vitter. Will it reduce the problem?
    Ms. LeBas. No. It will not even reduce the problem because 
that's not what is really causing the problem. It is 
uncomfortable for people, I understand that, but it's not what 
is causing the backup and the delay.
    What we are looking at? I want to talk about the study that 
we are doing. And I believe now--in the past, I don't believe 
we had the political will or really the public will to help fix 
that corridor from LA 415 to the I-10/I-12 split. I believe 
with the increase in traffic, I have seen just in my time as 
secretary for 5 years, that momentum and pendulum swing to 
where people are now demanding and saying this is important to 
Baton Rouge. This is important to our economy. We have got to 
fix this area.
    We put out a survey, I-10 survey to the people, and I'm 
happy to report we have over 10,000 people who have now taken 
that survey. You know, I've talked about it in my public 
comments that we need the whole community to come together on 
this project, not just the people that live along that 
corridor, but all the people that use it and the people on the 
west side of the river, as well as the east side.
    So we are very encouraged about people taking the survey, 
over 10,000, telling us--if there's anyone listening, please 
continue to take that survey. We extended the date.
    So what are we looking at and what is my vision? Here's 
what I would like to see happen. We are in the feasibility 
study right now. We will be showing some concepts to the public 
in August, this August. So I encourage people to come. And I 
have challenged the consultant that is doing this project to 
look at ways that we can do fundable pieces. Sometimes it's so 
hard for us to look at something and say, oh, my gosh--and I 
don't know what the cost estimate for all of this is, but let's 
say $400 million, $800 million, whatever, to look at it and 
say, oh, my gosh, I've got to come up with all that money at 
one time.
    So what I would like to do is break it into fundable pieces 
much like what we did for I-49 North. We had $50 million 
segment pieces and we just kept chipping away, persevered, and 
we got it done.
    So looking at that for the I-10 corridor, what are some 
pieces that we can do? We have got to go through the 
feasibility, then the environmental stage, then design. We are 
looking at, going back to the Washington Street exit, we are 
studying what can we do there. One of the ideas is putting the 
exit further back before you get to where the I-10/I-110 merge, 
so that when people are coming from north Baton Rouge, want to 
exit off at Washington Street, they don't have to cross over 
traffic with people coming off the interstate.
    We are also looking at a possibility of putting the 
Washington Street exit and relocating it on the left side. So 
I'm not saying that modifying the Washington Street exit would 
not help the situation, it would, it's just if you closed it, 
you would see no relief in the traffic. You would still see 
that backup along I-10.
    We have got to do more than that. We have got to look at 
all the corridor. I am very much, being the engineer that I am, 
on looking at data and looking at traffic modeling and that's 
what we are looking at. And so I advocate to all of you that 
when we have the public meeting, let's really look at the data 
and really have a heart-to-heart discussion on what is it going 
to take to improve traffic along that corridor.
    Senator Vitter. Great. Let me ask all of the others, since 
you're all at least generally familiar with this area and that 
issue. You know, we are going to have this process, not trying 
to pre-judge anything, but based on what you have seen and 
studied, what do you think might be viable, partial solutions 
for a work-around Baton Rouge, a partial loop, whatever you 
want to call it, including Roy has already started that 
discussion with his suggestion relating to the Sunshine Bridge, 
including that or anything else.
    Mr. Quezaire. If I could, it's been a logistical nightmare 
and motorist frustration, I mean, it's just escalated to the 
sky and beyond. I think what we need to look at is something 
that is viable, it's doable, it makes common sense, and it does 
not cost over a billion dollars to do.
    We have a $12 billion backlog and kudos to the State and 
the Department for reducing that from $15 billion to $12 
billion, of actual projects that's been designed and I mean 
and--not shelved, but basically on the shelf. And to the 
average citizen, that's never, ever, ever land as far as 
happening, conceptually speaking.
    However, if we actually segued off and look at the west 
bank, west side of the Mississippi River between Port Allen and 
Donaldsonville, the Sunshine Bridge, there was a study, a 
feasibility study that was conducted by the Department in 2011, 
not that many years ago, and at that time, the price tag or the 
forecast was all inclusive of the engineering design, the 
environmental, right-of-way acquisition and utility relocation 
and construction of $38 million. To me, that's more practical. 
It's something that you can actually see that has a better 
chance of happening as compared to a 1 point whatever billion 
dollar project.
    I think also with the economic forecast that has been given 
the last quarter of last year, I think our Louisiana Department 
of Economic Development came forth with a forecast between 
Baton Rouge and Mississippi River and New Orleans, within the 
Mississippi River corridor that there would be somewhere 
between 70, 68 to 72, $74 billion of industrial expansions 
between that area, Baton Rouge and New Orleans in oncoming 
years.
    But guess what? For foreign investment, foreign direct 
investment dollars and venture capital to come into an area, 
guess what they look at? Infrastructure. Is it suitable? Is it 
practical? Is it doable for us to put a business, plant our 
money here and get a great return on that investment?
    So we have to be conscious and aware of how we have to 
posture ourselves as a State, as a region, in particular, since 
we are here in Baton Rouge, but that--that infrastructure, the 
present infrastructure will be challenged more and more as we 
go.
    Diverting the traffic, you're again--one of the individuals 
that gave testimony today said that it's the truckers don't 
even think about coming this way. How many dollars have we lost 
as a result of not having the adequate infrastructure and the 
frustration of sitting on that I-10 bridge.
    West Baton Rouge Parish President Berthelot has been a 
champion for years talking about segueing off that to 415 and 
bringing it over and tying it over to LA 1. I think those 
things are doable and, again, $38 million in 2011 maybe is $40-
something million now, but it's a far cheaper price tag than 
looking at some of the mega-projects that have been shelfed and 
will probably stay shelfed for quite some time until we can 
bring forth enough dollars to resolve it.
    Senator Vitter. Ken. Joey.
    Mr. Perret. Secretary LeBas is exactly correct when she 
says you need to build support for any kind of mega-project 
like the I-10 improvement is going to be. Back in 2000/2001, 
when I first came back to Louisiana, we were working on the 
same project, Eric Kalivoda, Deputy Secretary, was deeply 
involved in it. We were that close to having a solution that 
would have improved the project, improved the flow of traffic 
and not affected hardly any property owners. What happened? The 
political support was not there, and a small group of 
influential people who lived in the corridor convinced the 
political leadership that it shouldn't be built.
    Senator Vitter. What was that solution broad brush? I mean, 
just broad brush.
    Mr. Perret. It was to expand, add additional lanes and to 
change some of the interchanges so they would work better. And 
reroute, I think we had, at that time, planned to reroute the 
Washington, as Secretary said, to a left off so it wouldn't 
conflict with the oncoming traffic.
    Another thing, what's presented to the public is very 
important because at that time they had a model of the 
improvement that was a beautiful model, but it was so big, the 
model itself was so big that it scared people. They thought it 
was going to destroy their neighborhoods. They saw this big 
model of the improvement. It really was just demonstrating, you 
know, what the features were going to be.
    So we have got to be very careful when dealing with the 
public that they don't get false ideas and start rumors about 
what is going to happen. They need to be given facts about what 
is going to happen and how they will be impacted and the 
impacts have to be minimized, especially the impacts on 
business.
    Senator Vitter. Ken, just so I understand, what you're 
describing did not involve a partial loop or work-around Baton 
Rouge?
    Mr. Perret. No, it was providing additional lanes off the 
bridge so you had two through lanes coming off the bridge. That 
would have moved the traffic on through to College and then out 
to I-10. So I think the secretary is absolutely right, we need 
to build political and citizen support for whatever is being 
planned.
    Now there is another plan in the works that involves 
private/public partnerships, which would be our first effort in 
Louisiana, and that's a project called Baton Rouge BUMP, which 
is basically coming across the 190 bridge, the old bridge, and 
doing some improvements to Airline Highway to make it like a 
freeway all the way down to I-12. So that's being studied right 
now by Louisiana Transportation Authority under DOTD to see if 
that's--if that private partnership can work. And of course, it 
would involve a toll, tolling facilities and investments there, 
but I think that's an alternate that really needs to be looked 
at carefully and is being looked at right now.
    Senator Vitter. Joey, any comments?
    Mr. Coco. Yes. So one of the thoughts that I have related 
to this subject kind of segues from what Ken had just mentioned 
is that the public support on this is so important and it has 
to be craftful.
    The power right now of social media, and I'm of the 
generation of social media, you know, I have been on Facebook 
for probably 10 years now, so to kind of give you an idea. But, 
you know, every day, we have social media being used to let us 
know when there's problems on the bridge here in Baton Rouge, 
there's notices that come out from, you know, the local media 
that sends a notice, hey, you know, there's a wreck on the 
bridge, and it's closed.
    Those types of things and leveraging that information 
that's coming from the social media network can be used to 
start to sway the masses to understand that this is an 
investment that everyone has to make, we all have to chip in, 
we all have to pay for this problem.
    If we don't, the consequences of doing nothing are going to 
be greater in the end. Our plants in the West Baton Rouge and 
Iberville side and folks that travel from the East Baton Rouge 
side to those locations or those folks that live in that area 
that are in West Baton Rouge and Iberville trying to travel to 
East Baton Rouge to work, the whole system is going to shut 
down if we don't really significantly invest in it.
    It's unacceptable when you have, you know, 5 miles of I-12 
and I-10 waiting to get on the bridge of three lanes wide, you 
do the math, you end up with 15,000 cars sitting there with two 
or three people in the car maybe. It's really amazing to see 
how many folks are impacted at one time by these events.
    To really leverage social media and try to get people 
talking about it, get the conversation going, it's really an 
interesting time and I think that it's a component that we 
could all improve on to say this is what we need to do. We need 
to really invest in this infrastructure in this area. If we 
don't, the consequences are going to be even greater.
    Senator Vitter. Before we move on, anybody have any 
specific reaction to Roy's Sunshine Bridge related idea?
    Ms. LeBas. I would like to add if I could.
    Senator Vitter. Sure.
    Ms. LeBas. I appreciate all the comments. I think they hit 
on a lot of the projects that we have been discussing and 
working on. Just add a couple more. We have proceeded with the 
Sunshine Bridge. The I-10, 22, LA 22, LA 70, we are surveying 
that, moving forward with designing a four-lane all the way to 
the Sunshine Bridge so that would help in the effort that 
you're talking about. We don't have construction money 
identified, but we are moving forward with pre-construction.
    Another project that we are doing a feasibility study on a 
new Mississippi River bridge crossing. It would be in between 
the new bridge, Horace Wilkinson Bridge, and the Sunshine 
Bridge. I'm of the opinion that we do need another bridge 
crossing in between those two bridges along with all that we 
have been talking about. And even with those improvements, the 
Mississippi River bridge, improving flow on the Sunshine 
Bridge, the BUMP project that Ken mentioned, the LA 1 
improvements that Roy Quezaire mentioned, I do want to say that 
our traffic studies show that even with those improvements, we 
still would have that bottleneck on the I-10 corridor.
    So even with all of those, we need to fix the part of the 
new bridge here in Baton Rouge but also continue looking, 
studying, looking at traffic modeling to see what is that best 
next or complementary project that can help with the overall 
traffic flow.
    Senator Vitter. Right. Right. OK. Roy, since you're with 
the port, you certainly talked about ports, let me ask you. We 
mentioned I-49, one of the participants from the audience 
mentioned I-49 South. I assume getting that done to a 
significant extent and eventually completed would have a big 
positive impact on all of our south Louisiana ports. Have you 
all quantified that at all or have a sense of what that could 
mean for our port activity?
    Mr. Quezaire. Well, from a conceptual perspective, we all 
embrace the idea of that actually being a reality one day. 
Quite naturally with the coastal ports and those five major 
ports, which is the largest port complex in the Western 
Hemisphere from Baton Rouge down the Mississippi River to New 
Orleans, Plaquemines and St. Bernard, quite naturally having I-
49 as an easier access route will certainly enhance our 
availability of moving products and cargo. So yes, we 
wholeheartedly embrace it. We have not yet even begun to talk 
about the financial part of it, but yes, it's a great concept. 
We certainly would welcome it.
    Senator Vitter. Right. Finally, let me ask in general, 
tolling. As I said, tolling can and should be an important 
piece of the puzzle, but we are not, in terms of population and 
traffic count, we are not the northeast corridor, we are not 
Houston, we are not greater Dallas. What is the realistic 
potential for that to be a significant piece of major projects 
and where would be projects where it could be a major positive 
funding factor?
    Mr. Perret. The problem with tolls, Senator, is you have to 
have the volume of traffic and you have to have the 
constriction that traffic has to use a certain point to be able 
to collect the tolls.
    When I was with DOTD, about the only viable area where you 
could use toll financing was in the New Orleans area because 
you have the higher traffic volumes around the West Bank and 
that kind of thing. But certainly toll financing can be a 
component, can be a part of a project. It's not enough traffic 
here--we have congestion, but we don't the high volumes like 
they have in Texas.
    So it has to be, tolling has to be used in combination with 
other financing methods to supplement it. It may be 20 percent 
or 30 percent of the project can be paid by tolls, you know, 
along with, you know, other kind of funding that comes from the 
State, and local and even the local governments can come up 
with ways to raise money. A tax improvement district could be 
formed to--that's going to be developing because of the toll 
road and so you could have property taxes to help pay for it. 
So you need a combination of funds with toll roads.
    Mr. Quezaire. From the conversations I have been involved 
in through the years that, at best, tolls would probably at its 
best would probably bring maybe one-third of the total cost to 
the table as far as revenue income. I mean, we are maybe 
stretching it a little saying one-third. But it would have to 
be a series of components plus tolls that would make the 
project doable.
    Mr. Perret. I would like to add one thing. On the national 
level, when you all are reconsidering reauthorization is that 
the Highway Trust Fund for many years was adequate for funding 
the interstate system, but what happened is the--it was--it's a 
flat tax that doesn't go up when the price of gas goes up. As 
inflation increased, it just has lost its value.
    But in addition to that, there's been so many bells and 
whistles that have been hung on the Highway Trust Fund that 
weren't originally in the original intent. Original intent was 
to do construction of roads and bridges and a lot of these 
programs are worthy projects, worthy programs, but to fund them 
out of the Highway Trust Fund takes money away from the basic 
needs of the system to do highway and bridge rehabilitation.
    So I think that needs to be looked at at a national level 
as to if these programs are worthy, they should be funded from 
the general fund and let the Highway Trust Fund concentrate on 
the basic needs of the system.
    Senator Vitter. I certainly agree with that. I've 
continually pushed to move those sorts of things out of the 
highway program and the Highway Trust Fund to sort of 
rededicate and refocus use of trust fund dollars, whatever they 
are, they are scarce, they are always going to be--we are never 
going to have too much of it. So I think we really need to be 
focused in that way. I agree with that.
    OK. We are going to wrap up here. Thank you all very much 
for coming out. And let's give a big round of applause to our 
panel of witnesses. Thank you all very much.
    Appreciate it. This is obviously an ongoing conversation. 
So please stay in touch with me and my office about all of 
these issues, including real specific observations or 
recommendations that you make in your neighborhood and areas 
you travel, needs that you have. Please get those to us.
    As you walked in, you got a handout. The blue column on the 
left-hand side of the handout is all of my contact information, 
including our office right here in Baton Rouge. Please keep 
that handy.
    At the top, also, is my website which has easy e-mail 
access. Please keep that handy and continue to be in touch with 
me about all of these serious traffic congestion issues.
    Thank you all very much. Our field hearing is adjourned.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
